GR-50-98-008
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Missouri State Highway Patrol
GR-50-98-008
February 26, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Missouri State Highway Patrol (State Patrol).
The State Patrol received $5,393,928 to hire or rehire 72 sworn police officers under the
Accelerated Hiring, Education, and Deployment (AHEAD) and the Universal Hiring
Supplemental Award (UHP) programs. In addition, the State Patrol received $3,370,942 under
the Making Officer Redeployment Effective (MORE) program to redeploy 35 sworn police
officers for 3 years and purchase computer equipment to redeploy the equivalent of 56.7
sworn police officers. The purpose of these officers is to enhance community policing
efforts. Generally, the State Patrol properly managed the grants; however, it violated
some grant conditions as follows:

- One of the civilian employee positions under the MORE grant was
  filled by abolishing the employee's existing position and transferring her to a COPS
  position. This condition does not meet the COPS grant requirement stating that funds must
  be in addition to, not in lieu of, funds previously committed to law enforcement.
  Therefore, we question $29,558 in salary and fringe benefits charged to the grant. 
- The State Patrol submitted 7 of 13 Financial Status Reports to the
  Office of Justice Programs late. Also, total program costs for the AHEAD grant were
  under-reported by $119,690 for the period ending June 30, 1997.
#####